                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 113110058                                                                    Page 1 of 1



         This case was opened to investigate an NSF payment made to an individual 1 with no relationship
         to NSF. Our investigation identified a payroll processing error. We referred the matter back to
         the agency for recovery of the erroneous payment.

         This case is closed.




NSF OIG Form 2 (11102)
